No.
IN THE
SUPREME COURT OF THE UNITED STATES
FITA SPANN
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE EIGHTH CIRCUIT
CERTIFICATE OF SERVICE OF MOTION FOR LEA VE
TO PROCEED IN FORMA PAUPERIS AND OF PETITION
FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE EIGHTH CIRCUIT
LAINE CARDARELLA
Federal Public Defender
Westem District of Missouri
DAVID R. MERCER, #36572
First Assistant Federal Public Defender
901 St. Louis Street, Suite 801
Springfield, Missouri 65806
Attorney for Petitioner

No.

IN THE
SUPREME COURT OF THE UNITED STATES

FITA SPANN,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE EIGHTH CIRCUIT

CERTIFICATE OF SERVICE OF MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS AND OF PETITION
FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE EIGHTH CIRCUIT

In accordance with Rules 29.3, 29.4(a), and 34.1 of the United States Supreme
Court Rules, I hereby certify that one copy of the accompanying Motion for Leave
to Proceed In Forma Pauperis and Petition for Writ of Certiorari to the United States
Court of Appeals for the Eighth Circuit was mailed, with prepaid first-class postage
affixed, to Solicitor General of the United States, Room 5614, Department of Justice,
950 Pennsylvania Ave., N.W., Washington, D.C., 20530-0001, phone number 202-

514-2201, Counsel for Respondent, and one copy of each was delivered to Ms.
Cynthia J. Hyde, Assistant United States Attorney, 901 St. Louis Street, Suite 500,
Springfield, Missouri 65806, and Mr. Shane McCullough, Attorney Advisor,
Medical Center for Federal Prisoners, P. 0. Box 4000, Springfield, Missouri 65802,
Counsel for Respondent, this 6th day of April, 2021. I further certify that the parties
required to be served in this case have been served.

j
DAVID R. MERCER

